•
  Additional Information and Copies

  To request copies of this report, contact Mr. James Graham (703) 604-8841)
  (DSN 664-8841).

  Suggestions for Future Audits and Evaluations

  To suggest ideas for, or to request future audits and evaluations of Defense
  intelligence issues, contact the Office of the Deputy Inspector General for
  Intelligence at (703) 604-8800 (DSN 664-8800) or fax (703) 604-0045. Ideas and
  requests can also be mailed to:

               Office of the Deputy Inspector General for Intelligence
               ODIG-INTEL (ATTN: Audit/Evaluation Suggestions)
                     Department of Defense Inspector General
                         400 Army Navy Drive (Room 703)
                             Arlington, VA 22202-4704




Acronyms
ATSD(IO)            Assistant to the Secretary of Defense for Intelligence Oversight
CI                  Counterintelligence
CIFA                Counterintelligence Field Activity
DCIIS               Defense Counterintelligence Information System
DIA                 Defense Intelligence Agency
DIMA                Defense Intelligence Mission Area
TALON               Threat and Local Observation Notice
USD(I)              Under Secretary of Defense for Intelligence
                            INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                           May 11,2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE
              ASSISTANT TO THE SECRETARY OF DEFENSE
                 FOR INTELLIGENCE OVERSIGHT


SUBJECT: Report on Audit of Information Technology Portfolio for DoD Intelligence
         Databases (Report No. 09-INTEL-07)


       We are providing this report for review and comment.

       Comments from the Under Secretary of Defense for Intelligence were not received
on the December 10, 2008, draft of this report. We request that management provide
comments that conform to the requirements of DoD Directive 7650.3. Please provide
comments by June 8, 2009.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Averel.Gregg@dodig.mil or iggreae@dodig.ic.gov. Copies of the
management comments must contain the actual signature of the authorizing official. We
cannot accept the / Signed / symbol in place of the actual signature. If you arrange to
send classified comments electronically, they must be sent over the Joint Worldwide
Intelligence Communications System (JWICS).

        Management comments should indicate concurrence or nonconcurrence with each
applicable finding and recommendation. Comments should describe actions taken or
planned in response to agreed-upon recommendations and provide the completion dates
of the actions. State specific reasons for any nonconcurrence and propose alternative
actions, if appropriate.

       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Sean Mitchell at (703) 604-8815 (DSN 664-8815) or Mr. Averel E. Gregg at
(703) 604-8965 (DSN 664-8965).




                               G?~fiJt~  Patricia A. Brannin
                                       Deputy Inspector General
                                           for Intelligence
       Department of Defense Office of Inspector General

Report No. 09-Intel-07                                                        May 11, 2009
  (Project No. D2008-DINT02-0055)

             Audit of Information Technology Portfolio for DoD
                           Intelligence Databases



                                 Executive Summary

Who Should Read This Report and Why? All DoD officials and intelligence and
counterintelligence personnel who manage DoD databases should read this report.

Background. This report discusses DoD criteria and compliance with internal controls
related to portfolio management for intelligence databases.

During the briefing of DoD Inspector General Report No. 07-INTEL-09, “The Threat and
Local Observation Notice Report Program,” June 27, 2007, the House Permanent Select
Committee on Intelligence suggested that the DoD Inspector General audit additional
intelligence databases.

Results. Office of the Under Secretary of Defense for Intelligence officials had not fully
established the control mechanisms to effectively manage and oversee DoD databases for
intelligence components in accordance with DoD regulations. Office of the Under
Secretary of Defense for Intelligence officials had not established an intelligence
technology portfolio; therefore, they did not have visibility into issues such as duplication
of systems, facilities, and services; and system interoperability. As a result, officials
were unaware of the quantity and capabilities of intelligence databases maintained by
agencies within the intelligence community responsible for data collection and
dissemination. Under Secretary of Defense for Intelligence officials did not have:

      the capability to guarantee that the information collected, stored, and
       disseminated by subordinate agencies were maintained in accordance with
       applicable intelligence laws and DoD regulations;
      the information needed to identify gaps and opportunities for technology
       insertions to enhance intelligence, counterintelligence, and security
       responsibilities; and

      all the information needed to provide advice concerning acquisition programs that
       significantly affected the Defense intelligence community.

Recommendation 2 in the December 10, 2008, draft report was deleted because the
Office of the Under Secretary of Defense for Intelligence removed the Defense
Intelligence Mission Area Portfolio Management Office from the Defense Intelligence
Agency and incorporated that function into their Deputy Under Secretaries of Defense for
Portfolio, Programs, and Resources office.
Recommendations. We recommend that the Under Secretary of Defense for
Intelligence:

             develop an intelligence information technology portfolio,

             assess all systems in the information technology portfolio to enhance the
              management of those systems.

      Client Comments. Under Secretary of Defense for Intelligence did not provide
      comments to the draft of this report issued December 10, 2008.

      Our Response. We request that the Under Secretary of Defense for Intelligence
      comment on this report by June 8, 2009.
Table of Contents



Executive Summary                              i

Background                                     1

Objectives                                     3

Finding

     USD(I) Intelligence Database Oversight    4

Appendixes
     A. Scope and Methodology                 10
     B. Mitre report                          12
Background
    This report discusses DoD criteria and compliance with internal controls related
    to information technology portfolio management for Intelligence Community
    databases.
    During the briefing of DoD Office of the Inspector General, (Report No. 07-
    INTEL-09), “The Threat and Local Observation Notice (TALON) Report
    Program,” June 27, 2007, the House Permanent Select Committee on Intelligence
    suggested that the DoD Inspector General audit additional intelligence databases.
    The DoD Inspector General conducted the TALON audit in response to a
    congressional request on media reports that DoD developed and maintained a
    database for information on U.S. persons conducting domestic anti-war and
    counter military protests and demonstrations. The audit found that the
    Counterintelligence Field Activity (CIFA) and the U.S. Northern Command had
    legally gathered and maintained TALON data for law enforcement and force
    protection purposes; however, they did not comply with the information retention
    criteria specified in DoD directives. The Deputy Secretary of Defense directed
    the termination of the TALON reporting system effective September 17, 2007.
    DoD Criteria. DoD Regulation, 5240.1-R, “Procedures Governing the Activities
    of DoD Intelligence Components that Affect U.S. Persons,” dated December
    1982, established procedures for collecting, retaining, and disseminating
    information on U.S. persons. Specifically, DoD Regulation 5240.1-R defines
    collected information as follows:
           Information shall be considered as "collected" only when it has been
           received for use by an employee of a DoD intelligence component in
           the course of his official duties. Thus, information volunteered to a
           DoD intelligence component by a cooperating source would be
           "collected" under this procedure when an employee of such component
           officially accepts, in some manner, such information for use within that
           component. Data acquired by electronic means is "collected" only
           when it has been processed into intelligible form.

    DoD Directive 8115.02, “Information Technology Portfolio Management
    Implementation,” dated October 30, 2006, establishes policy and assigns
    responsibilities for the management of DoD information technology investments
    as portfolios that focus on improving DoD capabilities and mission outcomes.
    DoD Directive 5148.11, “Assistant to the Secretary of Defense for Intelligence
    Oversight (ATSD[IO]),” May 21, 2004, updates the responsibilities, functions,
    relationships, and authorities of the Assistant to the Secretary of Defense for
    Intelligence Oversight:
           In the exercise of assigned responsibilities, the ATSD(IO) shall
           develop intelligence oversight policy and, in coordination with the
           General Counsel of the Department of Defense, issue intelligence
           oversight guidance to the DoD Components, including regulatory
           guidance




                                              1
            implementing intelligence oversight aspects of Executive Order
            (E.O.) 12333 United States Intelligence Activities, dated
            December 4, 1981.

     DoD Manual 8115.01, “Information Technology Portfolio Management,”
     October 30, 2006, requires information technology investments be managed as
     portfolios to ensure investments support the Department’s vision, mission, and
     goals; ensure efficient and effective delivery of capabilities to the warfighter; and
     maximize return on investment to the enterprise. Each portfolio shall be managed
     using the Global Infrastructure Grid, plans, risk management techniques,
     capability goals and objectives, and performance measures. Portfolios shall be
     nested and integrated at the Enterprise, Mission, and Component levels. The
     Enterprise portfolio shall be divided into Mission Area portfolios, which includes
     the DoD portion of intelligence. Portfolios shall be used as a management tool in
     each of the Department’s decision support systems including: the Joint
     Capabilities Integration and Development System; the Planning, Programming,
     Budgeting, and Execution System; and the Defense Acquisition System. The
     Under Secretary of Defense for Intelligence (USD[I]) is the Mission Area lead for
     the DoD portion of the Intelligence Portfolio. The USD(I) shall establish the
     Defense Intelligence Mission Area (DIMA) portfolio and issue guidance for
     managing the DIMA portfolio and designate responsibilities for DIMA portfolio
     management.


Definitions
     Data Repository. A specialized database containing information about data,
     such as meaning, relationships to other data, origin, usage, and format, including
     the information resources needed by an organization. (DoD 8320.1-M)

     Database. A collection of interrelated data, often with controlled redundancy,
     organized according to a schema to serve one or more applications; the data are
     stored so that other programs without concern for the data structure or
     organization can use them. A common approach is used to add new data, and
     modify and retrieve existing data. (DoD 8320.1-M-1)

     Information Technology. The term with respect to an executive agency means
     any equipment or interconnected system or subsystem of equipment that is used
     in the automatic acquisition, storage, manipulation, management, movement,
     control, display, switching, interchange, transmission, and reception of data or
     information. The term “information technology” includes computers, ancillary
     equipment, software, firmware, and any similar procedures, services, and related
     resources. (Chairman of the Joint Chief of Staff Instruction 8410.01)

     Information Technology Portfolio. A grouping of information technology
     investments by capability to accomplish a specific functional goal, objective, or
     mission outcome. (DoDD 8115.01)

     Information Technology Portfolio Management. The management of selected
     groupings of information technology investments using strategic planning,
     architectures, and outcome-based scoring criteria to achieve mission capability.
     (Chairman of the Joint Chief of Staff Instruction 8410.01)
                                           2
    Portfolio. The collection of capabilities, resources and related investments that
    are required to accomplish a mission-related or administrative outcome. A
    portfolio includes outcomes, performance measures (mission, functional, or
    administrative measures), and an expected return on investment. Resources
    include people, money, facilities, weapons, information technology, other
    equipment, logistics support, services, and information. Management activities
    for the portfolio include strategic planning, capital planning, governance, process
    improvements, performance metrics/measures, requirements generation,
    acquisition/development, and operations (DoD 8115.02).

    Schema. A definition of data structure. (FIPS 184)

    Internal Schema. A schema of the American National Standards Institute’s
    Standard Planning and Requirements Committee’s Three Schema Architecture, in
    which views of information are represented in a form specific to the database
    management system used to store the information; a description of the physical
    structure of data. (FIPS 184)


Objective
    Our overall audit objective was to determine the extent that DoD intelligence and
    counterintelligence (CI) components maintain databases that contain U.S. person
    information. This report discusses control mechanisms for effective management
    and oversight. See Appendix A for a discussion of the scope and methodology,
    and prior audit coverage related to the objectives.




                                         3
                    USD(I) Intelligence Database Oversight
                    OUSD(I) officials had not fully established the control mechanisms to
                    effectively manage and oversee DoD databases for intelligence
                    components in accordance with DoD regulations. OUSD(I) officials had
                    not established an intelligence technology portfolio; therefore, they did not
                    have visibility into issues such as duplication of systems, facilities, and
                    services; and system interoperability. As a result, OUSD(I) officials were
                    unaware of the quantity and capabilities of intelligence databases
                    maintained by agencies within the intelligence community responsible for
                    data collection and dissemination. In addition, OUSD(I) officials did not
                    have:
                         the capability to guarantee that the information collected, stored,
                            and disseminated by subordinate agencies were maintained in
                            accordance with applicable intelligence laws and DoD regulations;
                         the information needed to identify gaps and opportunities for
                            technology insertions to enhance intelligence, counterintelligence,
                            and security responsibilities; and
                         all the information needed to provide advice concerning
                            acquisition programs that significantly affected the Defense
                            intelligence community.

USD(I) Program Oversight and Responsibilities
           On April 18, 2003, the Secretary of Defense established the office of the Under
           Secretary of Defense for Intelligence. The primary functions of the USD(I) are to
           act as the principal assistant to the Secretary of Defense regarding intelligence;
           exercise the authority, direction, and control over intelligence and intelligence-
           related activities within the DoD; and serve as the single point of contact within
           the DoD for other government agencies on intelligence matters.

           USD(I) Program Oversight. DoD Directive 5143.01, “Under Secretary of
           Defense for Intelligence,” November 23, 2005, states that the USD(I) exercises
           the Secretary of Defense’s authority, direction, and control over the Defense
           Agencies and DoD Field Activities that are Defense intelligence, CI, or security
           components1 and exercises planning, policy, and strategic oversight over all DoD
           intelligence, CI, and security policy, plans, and programs. In the performance of
           this policy, the USD(I) shall:
                oversee DoD Intelligence Community policy, plans, programs, required
                   capabilities, and resource allocations, which includes exercising
                   responsibilities for DoD Components within the National Intelligence
                   Program and the Military Intelligence Program;


1
    DoD Directive 5143.01 states that the Under Secretary of Defense for Intelligence shall exercise the
    Secretary of Defense’s authority, direct, direction, and control over the Defense Security Service,
    Defense Intelligence Agency, National Geospatial-Intelligence Agency, National Security
    Agency/Central Security Service, and the National Reconnaissance Office and other positions and
    organizations as may be established by the USD(I).
                                                       4
                    develop and oversee DoD policy regarding the sharing of information
                     consistent with applicable laws, regulations, and policies;
                    serve as the focal point for all policy and oversight matters relating to
                     intelligence information sharing and interoperability of Defense
                     intelligence systems and processes;
                    use existing systems, facilities, and services of DoD and other Federal
                     Agencies to avoid duplication and to achieve maximum readiness,
                     sustainability, economy, and efficiency; and

                    identify gaps and opportunities for technology insertion to enhance
                     intelligence, CI, and security capabilities.

           DoD Directive 5143.01 states that for planning, programming, budgeting, and
           execution matters, USD(I) shall support the Assistant Secretary of Defense for
           Legislative Affairs and the Under Secretary of Defense (Comptroller) in
           presenting, justifying, and defending intelligence, CI, and security programs and
           budgets before the Congress as well as evaluating and assessing Congressional
           activity for impact on all assigned areas of responsibility. That Directive further
           states that, for acquisition matters, the USD(I) shall provide advice and assistance
           to officials and entities within the U.S. Government concerning acquisition
           programs that significantly affect Defense intelligence, CI, and security
           components as well as intelligence, CI, and security programs.

           USD(I) Program Responsibilities. DoD Directive 8115.01, “Information
           Technology Portfolio Management,” October 10, 2005, states that the USD(I)
           shall serve as the mission area lead for the DoD portion of the intelligence
           portfolio.2 The Directive tasked USD(I) with establishing the DIMA Portfolio as
           well as issuing guidance and designating responsibilities for managing the DIMA
           portfolio. DoD Instruction 8115.02, “Information Technology Portfolio
           Management Implementation,” October 30, 2006, states that USD(I) has
           delegated responsibility for managing the DIMA portfolio to the Director,
           Defense Intelligence Agency (DIA), but USD(I) retains final signature authority.
           DIA established the DIMA Portfolio Management Office to manage the DIMA
           portfolio.

List of DoD Intelligence Databases
           OUSD(I) did not have a list of DoD intelligence databases; therefore, OUSD(I)
           officials were unaware of the quantity and content of the large repository/library
           type of intelligence databases that contain source information maintained by DoD
           intelligence components. On November 13, 2007, the USD(I) issued a
           memorandum to the DoD intelligence components requesting that they provide a
           point of contact by November 26, 2007. Each point of contact was responsible
           for assembling a list and description of the database(s) that contain U.S. person

2
    According to DoDD 8115.01, an Information Technology Portfolio is a grouping of information
    technology investments by capability to accomplish a specific functional goal, objective, or mission
    outcome. DoDD 8115.01 does not provide an official definition for the phrase “Intelligence Portfolio;”
    however, the specific functional goal described in this section relates to the collection of intelligence data
    required for an Information Technology Portfolio.
                                                         5
    information maintained for intelligence, CI, law enforcement, or force protection
    purposes; and identifying the organization that maintained each database. As of
    October 22, 2008, OUSD(I) personnel had not located any responses to the
    November 13, 2007, memorandum.

    OUSD(I) officials and officials within the Intelligence Agencies requested
    clarification on how the DoD IG defined the word “database.” On
    January 8, 2008, DoD IG made a distinction for this audit between the large
    repository/library type databases and the databases created by analysts from
    querying the large repository/library type database pertaining to a specific threat
    category or topic. We view the databases created by analysts pertaining to a
    specific threat category or topic as their “work projects.”

    The DIA’s DIMA Portfolio Management Office was requested to provide a list of
    existing DoD intelligence databases, a description of each database, the name of
    the organization responsible for maintaining the database, and a database point of
    contact maintained for intelligence, CI, law enforcement, or force protection
    purposes. On December 20, 2007, the DIA’s DIMA Portfolio Management
    Office officials stated that a list of the universe of DoD intelligence and CI
    databases containing U.S. person information was unavailable because the
    organization had only been in existence since October 2006 and they had not
    received a listing from OUSD(I). DoD Directive 5143.01 states that the USD(I)
    shall provide support for presentations, justifications, and the defense of
    intelligence budgets before Congress. Therefore, the DIA’s DIMA Portfolio
    Management Office personnel did not have the information needed to fulfill their
    mission of managing the intelligence information technology portfolio.


Management and Oversight
    OUSD(I) officials had not fully established the control mechanisms to effectively
    manage and oversee DoD databases for intelligence components in accordance
    with DoD regulations. Although DoD Directive 8115.01, October 10, 2005,
    required the USD(I) to establish an intelligence information technology portfolio
    and provide that portfolio to the DIA’s DIMA Portfolio Management Office,
    OUSD(I) officials did not establish an intelligence information technology
    portfolio to enhance intelligence, CI, and security responsibilities. Therefore,
    OUSD(I) officials did not have visibility into issues such as duplication of
    systems, services, and facilities; system interoperability; and opportunities for
    technology insertion. The development and effective management of a joint
    intelligence operating system begins with the knowledge of available intelligence
    databases owned and maintained by each member of the intelligence community
    followed by an understanding of each database’s capabilities.

    Maintaining a directory of databases allows intelligence administrators to make
    informed decisions regarding database acquisition and database consolidation
    where applicable. Because USD(I) did not have a directory of databases, they)
    could not:




                                          6
          guarantee that the information collected, stored, and disseminated by
           subordinate agencies were maintained in accordance with applicable
           intelligence laws and DoD regulations;

          identify gaps and opportunities for technology insertions to enhance
           intelligence, CI, and security responsibilities; and

          provide fully informed advice concerning acquisition programs that
           significantly affect the Defense intelligence community.

    There were no indications that the OUSD(I) ever considered identifying the
    universe of primary databases/repositories maintained by the intelligence
    community. The creation of an intelligence information technology portfolio that
    includes database/repositories for each intelligence component is necessary when
    considering intelligence community management and oversight, agency
    interoperability, and financial intelligence community resource spending. The
    OUSD(I) could also use the information technology portfolio to conduct a review
    of intelligence systems similar to the one completed by CIFA.


Information Systems Assessment
    A complete information technology portfolio of the DoD Intelligence
    Community’s intelligence systems and an assessment of those systems would
    provide the OUSD(I) with the information needed to:
         improve management and oversight of the Defense intelligence
            community, and
         provide fully informed decisions on budgeting, systems acquisitions,
            systems interoperability, systems duplication, and systems data standards.
    A review would help OUSD(I) identify gaps and opportunities for technology
    insertions to enhance intelligence, CI, and security responsibilities. A review
    would also help OUSD(I) develop data standards; a shared data architecture,
    multi-tiered intelligence data architecture; and standards for a federated
    application architecture framework to facilitate and foster the future sharing of
    applications within the intelligence community. CIFA used such an assessment to
    improve the management of the CI Community information technology portfolio.
    On June 22, 2007, the MITRE Corporation (MITRE) issued a report in response
    to a contract from the Director, CIFA, to complete two tasks:
         assess and review DoD systems providing automated support to the CI
            community, and

          recommend a way ahead for the Defense Counterintelligence Information
           System (DCIIS) program, specifically for the multitude of automation
           systems currently in use to support the CI processes.

    The MITRE review identified three issues within the CI community:
        a lack of standardization, not only at the information level, but also in data
          and information exchange formats;

                                         7
          insufficient interoperability and access because of disjointed CI data
           across the community; and

          duplication of effort across the CI community as CIFA, the Services, and
           DIA build and improve on information systems that provide overlapping
           functionality.

    DoD Directive O-5240.02, “Counterintelligence,” December 20, 2007, addressed
    the MITRE findings. The Directive stated that DoD Components will use
    USD(I)-approved CI information systems and architectures for DoD CI
    management and reporting. The Directive also states that the USD(I) shall
    “designate and approve all CI information systems and architectures to be used
    for DoD CI management and reporting purposes.” See Appendix B for additional
    information on the MITRE report.

Summary
    OUSD(I) officials need to improve control mechanisms so that they have better
    visibility of the quantity and capabilities of intelligence databases/repositories
    maintained by agencies within the intelligence community responsible for data
    collection and dissemination. They also need to improve control mechanisms that
    provide the information needed to (1) determine whether duplication of systems,
    facilities, and services existed; (2) provide fully informed advice concerning
    acquisition of information technology programs and systems; and (3) identify
    gaps and opportunities for technology insertions to enhance intelligence, CI, and
    security responsibilities. OUSD(I) officials need to establish an intelligence
    information technology portfolio and use that portfolio to improver management
    of intelligence information systems..


Recommendation, Management Comments, and Our Response
    We recommend that the Under Secretary of Defense for Intelligence:

    1. Develop an intelligence information technology portfolio to include a list of all
    systems currently used and systems in development, a description of the mission
    and capabilities of each system, and a point-of-contact.

    2. Assess all systems in the intelligence information technology portfolio to:

          determine whether duplication of systems, facilities, and services exist;
          identify gaps and opportunities for technology insertions;
          develop data standards,
          develop a shared data architecture,
          develop a multi-tiered intelligence data architecture, and
          develop standards for a federated application architecture framework to
           facilitate and foster the future sharing of applications within the
           intelligence community.



                                         8
Appendix A. Scope and Methodology
   We conducted this performance audit from October 16, 2007, through
   October 17, 2008, in accordance with generally accepted government auditing
   standards. Those standards require that we perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions.

   We reviewed the management and oversight of DoD OUSD(I) provided for
   intelligence databases. During December 2007 through September 2008, we
   conducted multiple site visits to obtain a better understanding of intelligence
   databases. We interviewed officials within the Office of Assistant to the
   Secretary of Defense for Intelligence and Oversight; Joint Staff; Defense
   Intelligence Agency; National Security Agency; National Geospatial-Intelligence
   Agency; Naval Criminal Investigative Services; Office of Naval Intelligence; U.S.
   Army Intelligence Security Command; National Reconnaissance Office; Air
   Force Office of Special Investigations; and the Air Force Intelligence,
   Surveillance, and Reconnaissance Agency. We requested that OUSD(I) and the
   DIA’s DIMA Portfolio Management Office provide a copy of the Intelligence
   Information Technology Portfolio; however, they had not developed a portfolio.
   We requested each member of the DoD Intelligence Community to provide a list
   of databases they maintained or used to store intelligence, CI, and law
   enforcement data.

   During the audit, we applied relevant criteria, such as DoD Directive 5143.01,
   DoD Directive 5240.1-R, DoD Directive 5240.02, DoD Directive 5148.11, and
   DoD Instruction 8115.02.

   Scope Limitation. On September 17, 2007, we issued a memorandum to the
   USD(I) requesting a list of intelligence databases. Because USD(I) could not
   provide a list, we announced the audit, on October 16, 2007, to the DoD
   intelligence components with the intention of developing the universe list of
   intelligence databases from which to select a sample. On November 13, 2007,
   USD(I) issued a memorandum, “Audit of Department of Defense Intelligence
   Database(s),” to the DoD intelligence components requiring a point of contact to
   be provided by November 26, 2007. The memorandum required each point of
   contact to be responsible for assembling a list and description of the database(s)
   that contain U.S. person information maintained for intelligence,
   counterintelligence, law enforcement, or force protection purposes; and
   identifying the organization that maintains each database. As of October 7, 2008,
   OUSD(I) still had not received a list of databases from the Intelligence
   Community.

   The difficulties encountered in trying to generate the universe list of DoD
   intelligence databases from which to select the sample for the audit was not
   completely settled. There was confusion on what type of databases we wanted
   included in the request; therefore, on January 8, 2008, we made a distinction
   between the large repositories/library type databases that would be the source data
   for analysts’ queries and databases created by analysts for their specific tasks.
   Meeting with the DoD intelligence components, specifying the large
   repository/library type databases, obtaining lists, and reviewing their policy and
                                        9
    procedures pertaining to U.S. person information have been a time consuming
    endeavor. For that reason, we have chosen to issue this report addressing the
    current management control condition.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.


Prior Coverage
    During the last 5 years, the Department of Defense Office of the Inspector
    General (DoD OIG) issued two report discussing DoD databases that contain U.S.
    person information.

DoD OIG
    DoD IG Report No. 07-INTEL-09, “The Threat and Local Observation Notice
    (TALON) Report Program,” June 27, 2007

    DoD OIG Report No. 07-INTEL-14, “Review of Access to U.S. Persons Data by
    the Space and Naval Warfare Systems Command,” September 28, 2007




                                       11
           Appendix B. MITRE Report
           In June 2007, the CIFA initiated an assessment of the CI environment with the
           objective of cataloging and potentially consolidating CI databases. The following
           assessment demonstrates a successful attempt at reaching uniformity throughout
           the intelligence community.

           On June 22, 2007, the MITRE Corporation (MITRE) issued a report in response
           to a request from the Director, CIFA, to complete two tasks:
                assess and review DoD systems providing automated support to the CI
                   community, and
                recommend a way ahead for the DCIIS program, specifically for the
                   multitude of automation systems currently in use to support the CI
                   processes.

           The goal of the DCIIS assessment was to provide an independent, objective
           evaluation on the capabilities of automated tools currently in use or in
           development for use across the CI community. The assessment also included a
           high-level gap analysis to highlight the capabilities that existed at the time to meet
           the needs of the CI community and identify shortfalls in current automated
           capabilities. For the DCIIS assessment, CIFA asked each CI community
           organization to identify current or near-current systems that are in use to support
           CI processes and that satisfy all or a portion of the requirements identified as
           evaluation factors in the review. CIFA asked MITRE to include available
           capabilities or capabilities projected to be available through testing by
           December 2007.

           The MITRE assessment team reviewed 14 CI systems owned by 5 intelligence
           community members.3 MITRE representatives met with representatives from
           each CI agency to discuss and further refine the evaluation factors and then
           prepared a report documenting the assessment criteria, assumptions about specific
           criteria, the scoring guidance, and the approach used to collect the evidence to
           score each system. Based on their discussions, issues within the CI community
           included:

                   a lack of standardization, not only at the information level, but in data and
                    information exchange formats;

                   insufficient interoperability and access as a result of disjointed CI data
                    across the community; and

                   duplication of effort across the CI community as CIFA, the Services, and
                    DIA build and improve on information systems that provide overlapping
                    functionality.



3
    The five intelligence community member organizations included in the MITRE DCIIS assessment
    included the Air Force Office of Special Investigations (four CI systems), CIFA (three systems), DIA
    (one system), Naval Criminal Investigative Service (five systems), and United States Army (one system).
                                                     12
The MITRE assessment team collected information about each of the 14 systems
and generated five assessment reports, one for each system or suite of systems.
The assessment team then conducted a functional and a technical assessment of
each system. During the functional assessment, MITRE analyzed the information
contained within the five assessment reports and compared the systems based on
the following categories:

    counterintelligence collections,
    counterintelligence investigations,
    offensive counterintelligence operations,
    counterintelligence analysis and production,
    counterintelligence functional services, and
    non-offensive counterintelligence operations.
The technical assessment of each system was based on the following categories:

      general system and performance requirements,
      human factors requirements,
      information technology requirements,
      DoD information technology compliance,
      operations and maintenance of the system, and
      training.

According to the MITRE assessment, although CIFA had developed and deployed
its program as the intelligence community’s CI information system, the Army,
Navy, Air Force, and DIA had concurrently developed and deployed information
systems that supported their individual CI missions and responsibilities. After
considering both the functional and technical assessments of each of the
14 information systems, MITRE could not identify a definitive winner among the
information systems assessed. According to their evaluation, different systems
excelled in providing different user capabilities, more robust architectures, or
more intuitive user interfaces. The MITRE assessment team recognized that
some duplication of effort was expected due to the existence of centers of
excellence in the CI community for various tools, services, or architectures. The
MITRE assessment team observed that a regular process to identify and connect
the information systems that supported the Defense CI community did not exist.

MITRE’s recommendations focused on system standardization (developing
standards across the CI community); promoting a shared data architecture
(improving CI data access across the CI community, security domains, and the
DoD); and creating a federated application architecture (one that would improve
ease of use, improve system functionality, and develop future capabilities, i.e.,
technology and tool enhancement). The MITRE presentation contained the
following conclusions:
     a community of semi-autonomous, dynamic CI entities will persist;
     CIFA should not attempt to build and operate a central CI information
        system that all CI users are expected to use exclusively to perform their
        mission; and




                                    13
      facilitate and foster the future sharing of applications within the CI
       community, CIFA should focus on developing data standards, a shared,
       multi-tiered CI data architecture, and standards for a federated application
       architecture framework.

On December 20, 2007, DoD Directive O-5240.02, “Counterintelligence,” stated
that DoD Components will use USD(I)-approved CI information systems and
architectures for DoD CI management and reporting. In addition, the USD(I)
shall, “designate and approve all CI information systems and architectures to be
used for DoD CI management and reporting purposes.” The directive also states
that the Director, CIFA, shall, “develop, manage, and maintain the DoD CI
management and reporting information systems and architectures;” as well as,
“exercising CI mission tasking authority to ensure the effective integration and
synchronization of the DoD CI community.” On January 31, 2008, USD(I) issued
a memorandum stating that in accordance with DoD Directive O-5240.02, Portico
(the CIFA/Defense Intelligence Agency CI information system) will be the DoD
information system for all CI reporting within the DoD no later than June 1, 2008.




                                    14
